<html>
<title> - PRIVATIZING THE INTERNET ASSIGNED NUMBER AUTHORITY</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]


           PRIVATIZING THE INTERNET ASSIGNED NUMBER AUTHORITY

=======================================================================

                                HEARING

                               BEFORE THE

             SUBCOMMITTEE ON COMMUNICATIONS AND TECHNOLOGY

                                 OF THE

                    COMMITTEE ON ENERGY AND COMMERCE
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             MARCH 17, 2016

                               __________

                           Serial No. 114-128
                           
                           
 [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]                          



      Printed for the use of the Committee on Energy and Commerce

                        energycommerce.house.gov
                        
                        
                        
                               __________
                                                         

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
20-471 PDF                  WASHINGTON : 2017                     
          
----------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="fe998e91be9d8b8d8a969b928ed09d9193d0">[email&#160;protected]</a> 
                                    
                        
                        
                        


                    COMMITTEE ON ENERGY AND COMMERCE

                          FRED UPTON, Michigan
                                 Chairman

JOE BARTON, Texas                    FRANK PALLONE, Jr., New Jersey
  Chairman Emeritus                    Ranking Member
ED WHITFIELD, Kentucky               BOBBY L. RUSH, Illinois
JOHN SHIMKUS, Illinois               ANNA G. ESHOO, California
JOSEPH R. PITTS, Pennsylvania        ELIOT L. ENGEL, New York
GREG WALDEN, Oregon                  GENE GREEN, Texas
TIM MURPHY, Pennsylvania             DIANA DeGETTE, Colorado
MICHAEL C. BURGESS, Texas            LOIS CAPPS, California
MARSHA BLACKBURN, Tennessee          MICHAEL F. DOYLE, Pennsylvania
  Vice Chairman                      JANICE D. SCHAKOWSKY, Illinois
STEVE SCALISE, Louisiana             G.K. BUTTERFIELD, North Carolina
ROBERT E. LATTA, Ohio                DORIS O. MATSUI, California
CATHY McMORRIS RODGERS, Washington   KATHY CASTOR, Florida
GREGG HARPER, Mississippi            JOHN P. SARBANES, Maryland
LEONARD LANCE, New Jersey            JERRY McNERNEY, California
BRETT GUTHRIE, Kentucky              PETER WELCH, Vermont
PETE OLSON, Texas                    BEN RAY LUJAN, New Mexico
DAVID B. McKINLEY, West Virginia     PAUL TONKO, New York
MIKE POMPEO, Kansas                  JOHN A. YARMUTH, Kentucky
ADAM KINZINGER, Illinois             YVETTE D. CLARKE, New York
H. MORGAN GRIFFITH, Virginia         DAVID LOEBSACK, Iowa
GUS M. BILIRAKIS, Florida            KURT SCHRADER, Oregon
BILL JOHNSON, Ohio                   JOSEPH P. KENNEDY, III, 
BILLY LONG, Missouri                 Massachusetts
RENEE L. ELLMERS, North Carolina     TONY CARDENAS, California7
LARRY BUCSHON, Indiana
BILL FLORES, Texas
SUSAN W. BROOKS, Indiana
MARKWAYNE MULLIN, Oklahoma
RICHARD HUDSON, North Carolina
CHRIS COLLINS, New York
KEVIN CRAMER, North Dakota

             Subcommittee on Communications and Technology

                          GREG WALDEN, Oregon
                                 Chairman
ROBERT E. LATTA, Ohio                ANNA G. ESHOO, California
  Vice Chairman                        Ranking Member
JOHN SHIMKUS, Illinois               MICHAEL F. DOYLE, Pennsylvania
MARSHA BLACKBURN, Tennessee          PETER WELCH, Vermont
STEVE SCALISE, Louisiana             JOHN A. YARMUTH, Kentucky
LEONARD LANCE, New Jersey            YVETTE D. CLARKE, New York
BRETT GUTHRIE, Kentucky              DAVID LOEBSACK, Iowa
PETE OLSON, Texas                    BOBBY L. RUSH, Illinois
MIKE POMPEO, Kansas                  DIANA DeGETTE, Colorado
ADAM KINZINGER, Illinois             G.K. BUTTERFIELD, North Carolina
GUS M. BILIRAKIS, Florida            DORIS O. MATSUI, California
BILL JOHNSON, Ohio                   JERRY McNERNEY, California
BILLY LONG, Missouri                 BEN RAY LUJAN, New Mexico
RENEE L. ELLMERS, North Carolina     FRANK PALLONE, Jr., New Jersey (ex 
CHRIS COLLINS, New York                  officio)
KEVIN CRAMER, North Dakota
JOE BARTON, Texas
FRED UPTON, Michigan (ex officio)

                                  (ii)
                             C O N T E N T S

                              ----------                              
                                                                   Page
Hon. Greg Walden, a Representative in Congress from the State of 
  Oregon, opening statement......................................     1
    Prepared statement...........................................     3
Hon. Frank Pallone, Jr., a Representative in Congress from the 
  State of New Jersey, opening statement.........................     4
    Prepared statement...........................................     5
Hon. Robert E. Latta, a Representative in Congress from the State 
  of Ohio, prepared statement....................................     5
Hon. Anna G. Eshoo, a Representative in Congress from the State 
  of California, opening statement...............................     6

                               Witnesses

Steve DelBianco, Executive Director, NetChoice...................     7
    Prepared statement...........................................    10
    Answers to submitted questions...............................   148
Alissa Cooper, Ph.D., Chair, IANA Stewardship Transition 
  Coordination Group.............................................    28
    Prepared statement...........................................    30
    Answers to submitted questions...............................   154
Sally Shipman Wentworth, Vice President of Global Policy 
  Development, Internet Society..................................    53
    Prepared statement...........................................    55
    Answers to submitted questions...............................   158
Audrey Plonk, Director, Global Cybersecurity and Internet 
  Governance Policy, Intel Corporation...........................    72
    Prepared statement...........................................    74
    Answers to submitted questions \1\...........................   162
Matthew Shears, Director of Global Internet Policy and Human 
  Rights Project, Center for Democracy & Technology..............    89
    Prepared statement...........................................    92
    Answers to submitted questions...............................   163
David A. Gross, Former U.S. Coordinator, International 
  Communications and Information Policy, Wiley Rein LLP..........    96
    Prepared statement...........................................    98
    Answers to submitted questions...............................   166

                           Submitted Material

Statement of Brett D. Schaefer and Paul Rosenzweig, the Heritage 
  Foundation, March 17, 2016, submitted by Mr. Walden............   116
Statement of the Internet Infrastructure Coalition, March 13, 
  2016, submitted by Mr. Walden..................................   132
Report of the International Center for Law & Economics' 
  Innovation Policy Research Program, ``In ICANN We Trust: 
  Assuring Accountable Internet Governance,'' White Paper 2016-1, 
  submitted by Mr. Walden........................................   134

----------
\1\ Ms. Plonk did not answer submitted questions for the record 
  by the time of printing.

 
           PRIVATIZING THE INTERNET ASSIGNED NUMBER AUTHORITY

                              ----------                              


                        THURSDAY, MARCH 17, 2016

                  House of Representatives,
     Subcommittee on Communications and Technology,
                          Committee on Energy and Commerce,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10:19 a.m., in 
room 2123, Rayburn House Office Building, Hon. Greg Walden 
(chairman of the subcommittee) presiding.
    Members present: Representatives Walden, Latta, Barton, 
Shimkus, Blackburn, Lance, Guthrie, Olson, Bilirakis, Johnson, 
Long, Collins, Eshoo, Clarke, DeGette, McNerney, and Pallone 
(ex officio).
    Staff present: Ray Baum, Senior Policy Advisor, 
Communications and Technology; Rebecca Card, Assistant Press 
Secretary; David Redl, Chief Counsel, Communications and 
Technology; Charlotte Savercool, Professional Staff Member, 
Communications and Technology; Dan Schneider, Press Secretary; 
Greg Watson, Legislative Clerk; Christine Brennan, Democratic 
Press Secretary; Jeff Carroll, Democratic Staff Director; David 
Goldman, Democratic Chief Counsel, Communications and 
Technology; Jerry Leverich, Democratic Counsel; Lori Maarbjerg, 
Democratic FCC Detailee; and Ryan Skukowski, Democratic Policy 
Analyst.
    Mr. Walden. I call to order the Subcommittee on 
Communications and Technology. For the witnesses' benefit, we 
expect to have votes on the House floor fairly soon. So our 
goal this morning is to start on time and try and get through 
the members' opening statements. And then we can get to you 
all. So I will try and move pretty rapidly through this.

  OPENING STATEMENT OF HON. GREG WALDEN, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF OREGON

    Two years ago, NTIA made the announcement it would work to 
transition the stewardship of the Internet Assigned Numbers 
Authority to an international, multistakeholder community. This 
announcement ignited significant questions and concerns of the 
potential risks associated with a transition. ``Would a new 
model allow for the capture by any one Government?'' ``What are 
the national security implications?'' ``How can ICANN be held 
accountable for its decisions without NTIA oversight?'' These 
were all very serious questions that many of us had.
    Since NTIA stated its intent, this subcommittee has held 
thoughtful discussions in an effort to get to answers. Through 
a series of hearings, we have asked these questions to fully 
understand the existing contract, the risks that should be 
considered with a potential transition, and what safeguards are 
necessary to reduce any threat. We received input from NTIA 
Administrator Strickling, ICANN, and the stakeholders who 
participate in the global community. These discussions have 
proved valuable to the process. And many of the concerns and 
mechanisms addressed here have become an integral part of the 
community's work.
    I have referenced the importance of the affirmations of 
commitments, especially the requirements that ICANN remain 
headquartered in the United States, and that the 
multistakeholder community conduct an ongoing review of ICANN's 
operations. We have seen the value of using stress tests to 
identify policies needed for an accountable governing 
structure. Fundamental bylaws that require a super majority to 
change, actionable mechanisms that empower the community, and 
an independent review of board decisions, these are all ideas 
that can hold the ICANN board accountable for its actions and 
resistance to capture.
    I am relieved to hear that ICANN is committed to these 
accountability measures regardless of whether the transition 
progresses or not. These policies are critical to ensuring that 
ICANN remain a stable steward of IANA and must be part of any 
successful transition.
    Last week marked a major milestone in the IANA transition 
process as the multistakeholder community transmitted its 
proposal to the United States Government for review. The entire 
community deserves recognition and appreciation for the 
countless, countless hours of hard work and commitment that 
went into crafting this plan.
    Now we embark on the next stage of our work, review of the 
proposal. As we dive into the specifics of the transition 
proposal today, it is important to acknowledge the technical 
foundation the transition rests upon. In recent months, a 
country code top-level domain experienced a denial of service 
attack on its root infrastructure. To ameliorate the impact of 
this attack, the country wanted to add servers to its root, but 
such a change would require the approval of IANA. Due to delays 
in this routine procedure, the domain was inaccessible for 
days.
    Technical functions of the Internet should move at Internet 
speed, not the speed of the U.S. bureaucracy. This is the 
challenge the transition looks to solve without introducing new 
vulnerabilities into Internet governance. The GAO report, 
initiated by leaders of this committee, gives us some guidance 
in our efforts, as it recommended NTIA establish an evaluation 
framework to guide the analysis of the proposal. So I applaud 
the NTIA for accepting this good-Government approach to 
guarantee its requirements are met.
    As NTIA embarks on its work, I want to reiterate what I 
have been saying throughout this entire process, this 
transition is far too important to be rushed by any artificial 
deadline. Much work still remains and, if needed, NTIA should 
take the steps to extend the contract. It is more important to 
get this done right than to simply get it done.
    Lastly, while we await the analysis of the proposal from 
NTIA, it is important to stress the important role that 
Congress plays during this process. The bipartisan work 
reflected in the DOTCOM Act maintains our oversight authority 
to ensure the requirements of a transition, established by 
NTIA, are met by the proposal. I appreciate the commitment from 
NTIA Administrator Larry Strickling to provide Congress with 
the time and opportunity to review this proposal. It is 
critical to the future of the Internet that we ensure a 
transition will meet our Nation's and the world's needs. The 
stakes are simply too high.
    So today, we will hear from a panel of stakeholder 
witnesses on their perspective of the multistakeholder process 
and the transition proposal. Many of you have participated 
directly in this process. And we congratulate you and 
appreciate the work that you have done. We are fortunate to 
have your expertise, not only there but before us today. Thank 
you.
    So thanks for sharing your insight and being here to answer 
any questions that remain.
    [The prepared statement of Mr. Walden follows:]

                 Prepared statement of Hon. Greg Walden

    Two years ago, NTIA made the announcement it would work to 
transition the stewardship of the Internet Assigned Numbers 
Authority to an international multi-stakeholder community. This 
announcement ignited significant questions and concerns with 
the potential risks associated with a transition. Would a new 
model allow for the capture by any one Government? What are the 
national security implications? How will ICANN be held 
accountable for its decisions without NTIA oversight?
    Since NTIA stated its intent, this subcommittee has held 
thoughtful discussions in an effort to get answers. Through a 
series of hearings, we've asked these questions to fully 
understand the existing contract, the risks that should be 
considered with a potential transition, and what safeguards are 
necessary to reduce any threats. We received input from NTIA 
Administrator Strickling, ICANN, and the stakeholders who 
participate in the global community. These discussions have 
proved valuable to the process and many of the concerns and 
mechanisms addressed here have become an integral part of the 
community's work. I've referenced the importance of the 
Affirmations of Commitments, especially the requirements that 
ICANN remain headquartered in the United States and the multi-
stakeholder community conduct an ongoing review of ICANN's 
operations. We've seen the value of using ``stress tests'' to 
identify policies needed for an accountable governing 
structure. Fundamental bylaws that require a supermajority to 
change, actionable mechanisms that empower the community, and 
an independent review of board decisions are all ideas that can 
hold the ICANN Board accountable for its actions and resistant 
to capture. I am relieved to hear that ICANN has committed to 
these accountability measures regardless of whether the 
transition progresses or not. These policies are critical to 
ensuring that ICANN remain a stable steward of IANA and must be 
a part of any successful transition.
    Last week marked a major milestone in the IANA transition 
process as the multi-stakeholder community transmitted its 
proposal to the U.S. Government for review. The entire 
community deserves recognition and appreciation for the 
countless hours of the hard work and commitment that went into 
crafting this plan. Now we embark on the next stage of our 
work: review of the proposal.
    As we dive into the specifics of the transition proposal 
today, it is important to also acknowledge the technical 
foundation the transition rests upon. In recent months, a 
country code top-level domain experienced a denial of service 
attack on its root infrastructure. To ameliorate the impact of 
this attack, the country wanted to add servers to its root, but 
such a change would require the approval of IANA. Due to delays 
in this routine procedure the domain was inaccessible for days. 
Technical functions of the Internet should move at Internet 
speed, not the speed of the U.S. bureaucracy. This is the 
challenge the transition looks to solve without introducing new 
vulnerabilities into Internet governance.
    The GAO report initiated by leaders of this committee gives 
us some guidance in our effort as it recommended NTIA establish 
an evaluation framework to guide the analysis of the proposal. 
I applaud NTIA for accepting this good-Government approach to 
guarantee its requirements are met. As NTIA embarks on its 
work, I want to reiterate what I have been saying throughout 
this entire process. This transition is far too important to be 
rushed by any artificial deadline. Much work still remains, and 
if needed, NTIA should take the steps to extend the contract. 
It is more important to get this done right, than to simply get 
it done. Lastly, while we await the analysis of the proposal 
from NTIA, it is important to stress the important role that 
Congress plays during this process. The bipartisan work 
reflected in the DOTCOM Act maintains our oversight authority 
to ensure the requirements of a transition established by NTIA 
are met by the proposal. I appreciate the commitment from NTIA 
Administrator Larry Strickling to provide Congress with the 
time and opportunity to review the proposal. It is critical to 
the future of the Internet that we ensure a transition will 
meet our Nation's--and the world's--needs. The stakes are 
simply too high.
    Today we'll hear from a panel of stakeholder witnesses on 
their perspective of the multistakeholder process and the 
transition proposal. Many of you have participated directly in 
this process and we are fortunate to have your expertise. Thank 
you for sharing your insight and being here to answer any 
questions that remain.

    Mr. Walden. At this point, they have called votes on the 
House floor. And given the new protocols on the House floor 
about 15-minute votes being 15 minutes, I am going to recess 
the committee. And we will return for further opening 
statements after votes are concluded. Thank you very much.
    [Recess.]
    Mr. Walden. We are going to reconvene the Subcommittee on 
Communications and Technology for purposes of taking opening 
statements. But we are apparently going to wait for Ms. Eshoo, 
who is on her way back, I know, from votes to join us. So we 
will go back into recess.
    [Recess.]
    Mr. Walden. We will reconvene the Subcommittee on 
Communications and Technology. And I will recognize the 
gentleman from New Jersey, the ranking member of the full 
committee, for his statement. And then we will go back and 
forth. Mr. Pallone, please go ahead.

OPENING STATEMENT OF HON. FRANK PALLONE, JR., A REPRESENTATIVE 
            IN CONGRESS FROM THE STATE OF NEW JERSEY

    Mr. Pallone. Thank you, Chairman. And also thanks to the 
witnesses. I know many of our witnesses were in Morocco last 
week for the ICANN meeting. So I appreciate your willingness to 
testify so quickly after your return.
    The National Telecommunications and Information 
Administration first contracted with ICANN in 1998 to perform 
the technical functions that have made the Internet such a 
powerful platform. At the time, the Clinton administration 
suggested eventually privatizing these functions. And now we 
are on the cusp of completing the transition. But the members 
of this subcommittee have made clear that this transition 
cannot take place without measures in place to keep ICANN 
accountable for its actions.
    I would like to congratulate the Internet's 
multistakeholder community on reaching an agreement on a final 
IANA transition and accountability proposal. I know that 
getting to this point took an impressive amount of work. But 
the work is not done. New bylaws for ICANN need to be completed 
to make the proposal legally binding. And now that we have a 
proposal, NTIA can begin officially reviewing it.
    This committee crafted the bipartisan DOTCOM Act, which 
would have given Congress an official role in this process. And 
the House passed this legislation. But, unfortunately, the bill 
has not made it through the Senate. Nonetheless, I am pleased 
that NTIA Assistant Secretary Strickling is committed to comply 
with the ideas behind the DOTCOM Act even if it isn't signed 
into law.
    And again, I look forward to hearing from our witnesses. 
Your testimony will help to inform our own understanding of the 
IANA transition proposal. Thank you. And I yield back, Mr. 
Chairman.
    [The prepared statement of Mr. Pallone follows:]

             Prepared statement of Hon. Frank Pallone, Jr.

    Thank you, Chairman Walden and Ranking Member Eshoo, for 
holding this hearing today. Thank you also to the witnesses for 
being here. I know many of you were in Morocco last week for 
the ICANN meeting, and so I appreciate your willingness to 
testify so quickly after your return.
    The National Telecommunications and Information 
Administration first contracted with ICANN in 1998 to perform 
the technical functions that have made the Internet such a 
powerful platform. At the time the Clinton administration 
suggested eventually privatizing these functions. And now we 
are on the cusp of completing the transition, but the members 
of this subcommittee have made clear that this transition 
cannot take place without measures in place to keep ICANN 
accountable for its actions.
    I'd like to congratulate the Internet's multi-stakeholder 
community on reaching an agreement on a final IANA transition 
and accountability proposal. I know that getting to this point 
took an impressive amount of work.
    But the work is not done. New bylaws for ICANN need to be 
completed to make the proposal legally binding. And now that we 
have a proposal, NTIA can begin officially reviewing it.
    This committee crafted the bipartisan DOTCOM Act, which 
would have given Congress an official role in this process. The 
House passed this legislation but unfortunately the bill has 
not made it through the Senate. Nonetheless I am pleased that 
NTIA Assistant Secretary Strickling has committed to comply 
with the ideas behind the DOTCOM Act-even if it isn't signed 
into law.
    I look forward to hearing from our witnesses. Your 
testimony will help to inform our own understanding of the IANA 
transition proposal.
    Thank you.

    Mr. Walden. The gentleman yields back. The Chair recognizes 
the vice chair of the subcommittee, Mr. Latta, for opening 
comments.
    Mr. Latta. Mr. Chairman, I am going to submit my testimony 
for the record, if I could ask unanimous consent, save a little 
time for our witnesses.
    [The prepared statement of Mr. Latta follows:]

               Prepared statement of Hon. Robert E. Latta

    Thank you, Mr. Chairman, and thank you for holding today's 
hearing to discuss the transition of the Internet Assigned 
Numbers Authority stewardship.
    Since the National Telecommunications and Information 
Administration (NTIA) announced it would transition the U.S. 
Government's role in the Internet's numbering function to a 
global multi-stakeholder community, this subcommittee has been 
monitoring the process and has kept the preservation of the 
Internet's openness a high priority. I recognize the work the 
Internet Corporation for Assigned Names and Numbers' (ICANN) 
has already accomplished and appreciate their proposals 
addressing the transition. However, I am pleased that Congress 
remains involved and engaged in Internet governance discussions 
to ensure enhanced accountability and transparency of ICANN.
    I look forward to continuing this conversation and hearing 
the witnesses' thoughts on the IANA stewardship transition 
plan. I thank the chairman for yielding .

    Mr. Walden. Indeed. So ordered for all of our members. The 
Chair recognizes the ranking member of the subcommittee from 
California, Ms. Eshoo.

 OPENING STATEMENT OF HON. ANNA G. ESHOO, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Ms. Eshoo. Thank you, Mr. Chairman, for holding this 
hearing. And welcome to our witnesses. It is wonderful to see 
you. And we look forward to your words of wisdom today.
    On the heel of ICANN's 55th meeting, that is a lot of 
meetings. I think I go to a lot of meetings, but 55 meetings, 
right, which was held in Marrakesh, a nice place to have a 
meeting I think, interesting place, earlier this month. I think 
that there is light at the end of the tunnel.
    My optimism comes in the form of the final proposal that, I 
hope, is going to ensure that the IANA transition supports and 
enhances the multistakeholder model of Internet governance, 
maintains the security, the stability, and the resiliency of 
the Internet Domain Name System, and does not replace the role 
of the NTIA with a Government-led or intergovernmental 
organization solution.
    Now, obviously, we know that reaching this point has not 
been without hiccups, let's put it that way. All right? But 
hiccups can be painful. Those that are afflicted with it--there 
was a Pope, I think, Pope Pius XII suffered from it. At any 
rate, thankfully, through this committee's leadership last 
year--and kudos to the chairman, because he has really ridden 
hard on this and, I think, we have all benefited by it--the 
House passed the DOTCOM Act by a strong bipartisan vote, 378 to 
25. I don't know what these 25 people were thinking. To enhance 
transparency and accountability without unreasonably delaying 
the IANA transition, the legislation provided 30 legislative 
days for public review of the transition proposal.
    Now, while the legislation has not been enacted into law, 
the NTIA administrator committed to this subcommittee last year 
that the agency will submit to Congress a report certifying 
that the transition proposal meets the criteria outlined in 
NTIA's March 2014 announcement, and give Congress an 
opportunity to review the proposal before settling on any final 
plan--which we appreciate and, I think, is appropriate. So the 
ball is now in NTIA's court.
    While there is still more work to be done in the 6 months 
leading up to the IANA contract's expiration, I think with 
responsible oversight, a successful transition is going to 
preserve the Internet's guiding principles of openness, 
security, stability, and resiliency. And ensure that ICANN 
cannot, sounds a little funny doesn't it, ICANN cannot be 
exposed to Government capture. And that has been the underlying 
concern all along. And I think that we are--I think we are 
moving closer to it.
    So I look forward to your testimony. I thank the chairman 
not only for this hearing, but for all that he has contributed 
to this process, and the witnesses as well.
    Thank you. And I yield back.
    Mr. Walden. I thank the gentlelady for her comments and her 
involvement in this whole effort.
    I now recognize the gentleman from Missouri, if he wants to 
make opening comments. No, he does not.
    How about the gentleman from California? Mr. McNerney, do 
you have an opening statement you would like to----
    Mr. McNerney. No, Mr. Chairman.
    Mr. Walden. You do not. Seeing no other members of the 
committee, we can move on to our witness panel today. Thank you 
again not only for being here and sharing your insights and 
wisdom, but also, for many of you, your incredible involvement 
in the process itself.
    So we will start with Mr. Steve DelBianco, the executive 
director of NetChoice. Mr. DelBianco, thank you for being here. 
Please go ahead with your opening comments.

 STATEMENTS OF STEVE DELBIANCO, EXECUTIVE DIRECTOR, NETCHOICE; 
   ALISSA COOPER, PH.D., CHAIR, IANA STEWARDSHIP TRANSITION 
COORDINATION GROUP; SALLY SHIPMAN WENTWORTH, VICE PRESIDENT OF 
  GLOBAL POLICY DEVELOPMENT, INTERNET SOCIETY; AUDREY PLONK, 
DIRECTOR, GLOBAL CYBERSECURITY AND INTERNET GOVERNANCE POLICY, 
INTEL CORPORATION; MATTHEW SHEARS, DIRECTOR OF GLOBAL INTERNET 
    POLICY AND HUMAN RIGHTS PROJECT, CENTER FOR DEMOCRACY & 
   TECHNOLOGY; AND DAVID A. GROSS, FORMER U.S. COORDINATOR, 
INTERNATIONAL COMMUNICATIONS AND INFORMATION POLICY, WILEY REIN 
                              LLP

                  STATEMENT OF STEVE DELBIANCO

    Mr. DelBianco. Chairman Walden, Ranking Member Eshoo, 
members of the committee, again, I am Steve DelBianco, 
executive director of NetChoice. And I am deeply involved at 
ICANN as the policy chair for the business constituency there. 
And I also represent commercial stakeholders on the working 
group that developed this accountability proposal that we are 
talking about today.
    I was before you 2 years ago when you held the very first 
hearing after NTIA announced the transition plan. And I would 
like to credit Chairman Walden, in particular, for steering us 
towards stress testing to figure out the way forward. I also 
spent many hours with GAO as they scrutinized our stress test 
approach pursuant to your letter request.
    And then I was before this panel last May as you were 
refining your DOTCOM Act. And you should know that your 
approval of DOTCOM brought a standing ovation at the ICANN 
meeting in Argentina last summer. Now, a standing ovation for 
the U.S. Congress, put that in the record.
    Mr. Walden. Is there video of that we could replay 
somewhere, please?
    Mr. DelBianco. And the DOTCOM Act gave us the community 
leverage over ICANN to get these bylaws adopted and implemented 
before letting going of IANA. ICANN's board committed twice to 
do that last week.
    Now, does the end of the IANA contract somehow mean that 
the U.S. is giving away our Internet, as I heard from a 
presidential candidate? Not really. In the 1980s, American 
engineers came up with a recipe for Internet protocol. And they 
gave that recipe to the world. So Internet engineers anywhere 
around the planet could construct a network using that recipe 
and connect to other networks. The U.S. doesn't own the 
Internet any more than Ireland owns the recipe for Irish stew. 
They don't. And that is a St. Patty's Day reference.
    The U.S. then created ICANN to internationalize and 
privatize management of the DNS. In over 18 years, the U.S. 
Government has helped ICANN to mature, protect it from U.N. 
encroachment, and to mitigate Government power. So Government 
power was the subject of a stress test that I presented to you 
2 years ago, the infamous stress test 18, where the Government 
Advisory Committee and ICANN could change to majority voting 
for its advice, and, thereby, place ICANN in the untenable 
position of arbitrating among sovereign governments who don't 
agree with each other.
    So in response to that stress test, we placed significant 
curbs on GAC advice. GAC's advice to the board will require 
full consensus, that is broad support in the absence of a 
single formal objection. And we raised the threshold for the 
board to reject that advice from 10 out of 16 votes from the 9, 
a small increase. And we created an independent review process 
to challenge ICANN's adoption of any Government advice. And we 
don't allow the governments to block the community's pursuit of 
that challenge.
    So the governance, or GAC, has unquestionably lost power in 
this transition in our response to stress test 18. And your 
staff report for today's hearing describes the opposition of 
governments, including France, Russia, Spain, Switzerland, 
Argentina, and Brazil. Now, to replace the leverage 
historically held by NTIA, we designed an empowered community. 
It is a petition and escalation process to challenge any ICANN 
action to approve a change to fundamental bylaws, and to even 
spill the board of directors.
    We invited all of the advisory committees and stakeholder 
organizations and ICANN to be part of this empowered community. 
We included governments there because we created a place for 
governments at the multistakeholder table when we set up ICANN. 
And had we excluded governments completely, I am afraid you 
would be grilling us today about how it is that Government has 
no role at all in the multistakeholder world. And had we 
excluded governments, that would be exhibit number 1 for the 
United Nations and ITU to show why they needed to take it over.
    It might be years before we actually turn on the power for 
the empowered community, since its main purpose is to challenge 
an ICANN decision, but that power will be there when we need 
it. We have some serious implementation work left in the next 
few months.
    At first, we have to ensure that the draft bylaws match our 
proposal. Those of us that are here in the working group will 
push that through for the ICANN board. They will approve it. 
New bylaws adopted by June, so that NTIA can hand Congress a 
report to give you time before the July recess to look at that. 
It is an aggressive timeline, but we can do it.
    Let me close by extending on an analogy I suggested to you 
2 years ago. I said to you to think of this transition in terms 
of a car and a driver, that the Domain Name System is the car, 
designed and built in the U.S.A. in the 1990s. And the license 
plate on that car reads IANA. In 1998, we created ICANN as the 
designated driver. We handed ICANN the keys while watching 
their driving and care of the car. But all along, the U.S. 
retained the title to that car as leverage to hold ICANN 
accountable. It is not, however, sustainable or necessary for 
the U.S. to hold that power forever in a post-Snowden world.
    So this transition signs over the title. But there is a 
little permanent lien on the back that says IANA customers can 
take it back if ICANN fails to deliver. And our accountability 
group, Mr. Chairman, is going to slap a little bumper sticker 
on the back of that ICANN car--``How is my driving? Contact 1-
800-ICANN Community''--or go to the empowercommunity.org if 
they are not driving----
    Mr. Walden. I see it.
    Mr. DelBianco. Mr. Chairman, thank you for your committee, 
for your support for the multistakeholder community. Your 
backing was essential. And I look forward to your questions.
    [The prepared statement of Mr. DelBianco follows:]
    
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    Mr. Walden. Mr. DelBianco, thank you. I think you win the 
prize for most interesting props for a hearing we have had in 5 
years.
    I do want to take one exception, however. Your comment the 
Irish don't control the recipe to the Internet, that is true. 
They do still maintain the control over the recipe for Guinness 
though. And that is something you may want to----
    We will now go to Dr. Alissa Cooper, who chairs the IANA 
Stewardship Transition Coordination Group. Dr. Cooper, we are 
delighted to have you before our members. Thank you for your 
participation. Please go ahead.

                   STATEMENT OF ALISSA COOPER

    Dr. Cooper. Thank you, Chairman Walden and members of the 
subcommittee, for the opportunity to testify today. My name is 
Alissa Cooper. I am an engineer by training. And I am the chair 
of the IANA Stewardship Transition Coordination Group, 
otherwise known as the ICG.
    The ICG was formed in July 2014 to coordinate the 
development of a plan to transition the stewardship of the 
Internet Assigned Number Authority functions to the global 
Internet community. The group is comprised of 32 people 
representing all of those who are affected by the transition. 
Businesses, governments, civil society, Internet users, and the 
technical community.
    Last week, NTIA received a package of proposals, one 
concerning the operational aspects of the IANA stewardship 
transition and the other concerning enhancements to the 
accountability of the Internet Corporation for Assigned Names 
and Numbers, ICANN. The two plans are interdependent and 
interrelated. And NTIA is considering them jointly, as is the 
U.S. Government more broadly.
    My testimony is focused on the operationally oriented IANA 
stewardship transition proposal, because that is the component 
that the ICG, the group that I chair, shepherded to its 
completion.
    There are three important aspects to recognize about the 
stewardship transition proposal. First, support for the plan is 
broad, deep, diverse, and global. Hundreds of people from 
across sectors and geographies put in thousands of hours of 
work, joined conference calls in the middle of the night, spent 
weekends, evenings, and holidays to complete this proposal. The 
effort put into it is truly remarkable and unprecedented. The 
result is global consensus in support of a plan that is good 
for the Internet.
    The ICG solicited public comments on the proposal last 
year, in a similar fashion, to the way that a Federal agency 
might solicit public comments. A significant majority of the 
157 commentors expressed support for the plan, including U.S. 
businesses, trade associations, and civil society groups. 
Furthermore, the ICG, where all of those who are most invested 
in the smooth functioning of the Internet, supports the 
proposal unanimously.
    The second critical point is that the plan provides 
continuity with how the Internet works today, building on the 
Internet's success. The strength of the plan is that it keeps 
in place the same operational realities that have allowed the 
Internet to grow and to be successful since the 1990s. It keeps 
the role of the IANAfunctions team intact and carrying out the 
same duties as it has now. So on the day that the NTIA contract 
expires, Internet users should notice no change.
    Furthermore, the Internet works because of a diverse set of 
organizations and individuals choose voluntarily, without any 
mandate, to have their networks interoperate with each other. 
Implementing the transition plan will be an important step in 
aligning the oversight of IANA with this collaborative and 
decentralized approach to Internet operations, rather than 
relying on authority derived from any single Government's 
contract.
    The third and final critical point is that the plan meets 
the criteria established by NTIA at the outset of the 
transition. I will focus on three of these criteria for 
brevity. Number one, the plan supports and enhances the 
multistakeholder model by leveraging and extending existing 
multistakeholder processes and arrangements. The plan upholds a 
vision for multistakeholder Internet governance that all of the 
communities represented on the ICG share and that, I think, 
this Congress shares as well.
    Number two, the plan maintains the security, stability, and 
resiliency of the Domain Name System by focusing on continuity 
as I just described. From an operational perspective, the plan 
incurs minimum change, while enhancing community oversight over 
IANA, providing the perfect recipe for security and stability.
    And, number three, the plan does not replace NTIA's role 
with a Government or intergovernmental organization. Instead, 
it relies on the global multistakeholder community to provide 
oversight over IANA. This community demonstrates a suite of 
features that defend it against capture by any single interest, 
including governmental interests. Those features include open 
processes where anyone can participate and everyone has a say, 
the use of transparent public proceedings for all decisions, 
consensus-based decisionmaking that never defaults to voting or 
campaigning, established appeals processes, and the ability to 
recall or replace underperforming members of the leadership. 
Taken together, these form the essence of the multistakeholder 
model and the best defense against undue influence by any 
single entity.
    I look forward to your questions today and welcome you to 
send further questions to the ICG at any point during your 
review of the transition plan.
    Thank you for your time and interest and your thoughtful 
consideration of this matter of critical importance to the 
future of the Internet.
    [The prepared statement of Dr. Cooper follows:]
    
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Walden. Dr. Cooper, thanks again for your testimony and 
for your work on this very important initiative. We will now go 
to Sally Shipman Wentworth, Vice President of Global Policy 
Development, Internet Society. Ms. Wentworth, thank you for 
being here. Please go ahead.

              STATEMENT OF SALLY SHIPMAN WENTWORTH

    Ms. Wentworth. Thank you. Chairman Walden, Ranking Member 
Eshoo, and members of the subcommittee, thank you for today's 
opportunity to testify before you on the transition of 
oversight of IANA, and the impact that it will have on global 
Internet policy, and on the future of the open Internet.
    My name is Sally Shipman Wentworth. I am the vice president 
of Global Policy Development for the Internet Society. The 
Internet Society is a global organization with more than 80,000 
members and 116 chapters worldwide. It is also the 
organizational home for the Internet engineering task force. 
And in its March 2014 announcement, the NTIA identified the 
Internet Society as a directly affected party to this 
transition.
    Two years ago, the NTIA announced its intent to transition 
the administration of the IANA functions. We now believe that 
we have reached a necessary and important step in ensuring the 
continued, uninterrupted operation of the global Internet, and 
in laying the best foundation for its future. We strongly 
support and endorse the resulting IANA stewardship transition 
plan and the recommendations to enhance ICANN accountability 
that have been delivered to the NTIA.
    Taken together, this is a plan that, first, ensures the 
continued stability and security of key technical functions 
that are a core part of the smooth operation of the Internet. 
Second, it provides a path forward for strengthening ICANN's 
accountability to its community. And, third, meets the criteria 
set by the NTIA in its original announcements.
    Through a global multistakeholder process that engaged 
industry, civil society, the technical community, governments, 
and many others, the community has reached consensus on a 
proposal that we believe will provide operational stability, 
reliability, and continuity for the global Internet.
    Mr. Chairman, the Internet is a transnational, borderless, 
network of networks, comprised of countless individual networks 
that voluntarily connect around the globe. The basic 
architecture of the Internet that we all rely upon every day is 
global and distributed. No one entity, Government or otherwise, 
controls it. The Governance of the Internet reflects this 
distributed approach. This model of governance is often 
referred to as the multistakeholder model. In essence, this is 
a way of getting things done that is bottom-up, inclusive, 
transparent, and that ensures that the relevant expertise can 
be brought to the table to solve hard problems. Like the 
Internet architecture itself, multistakeholder Internet 
governance ensures that no one stakeholder captures or takes 
over the Internet at the expense of others.
    The management of the IANA functions from the earliest days 
of the Internet through to the present embodies a 
multistakeholder model based on distributed coordinations and 
transparent governance. The proposal before the United States 
Government ensures that the multistakeholder systems that have 
facilitated the security and stability of the IANA functions 
remain strong and intact. Policy development for the IANA 
functions will remain distributed among three organizations. 
The Internet engineering task force, the regional Internet 
registries, and ICANN will each continue to employ 
multistakeholder processes to develop and manage the Internet 
identifiers.
    The stewardship of the IANA functions will be carried out 
by ICANN, itself a multistakeholder entity. Importantly for 
this subcommittee, the transition proposal directly addresses 
concerns about capture or control of the IANA by any one 
stakeholder, including governments. Any multistakeholder 
process must be vigilant about preventing capture. In the 
transition proposal, no single party has undue control. And 
there are protocols in place to prevent any individual 
organization or Government from seizing jurisdiction or 
excluding others from the stewardship process.
    In conclusion, I want to leave you with one key message: 
The Internet Society firmly believes that the transition plan 
that was sent to NTIA upholds the processes and principles that 
have served as a foundation for the Internet's growth and 
development to date. The communities have worked hard to ensure 
that the IANA functions will continue to operate in a 
predictable manner, consistent with the need to maintain the 
security, stability, resiliency, and openness of the Internet.
    And finally, Mr. Chairman, I want to use this opportunity 
to thank this subcommittee for its steadfast support for the 
multistakeholder model and for your continued engagement to 
ensure a smooth and stable transition of the IANA functions. 
Thank you.
    [The prepared statement of Ms. Wentworth follows:]
    
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Walden. Thank you, Ms. Wentworth. We appreciate your 
involvement and your testimony. We will go to Audrey Plonk, the 
Director, Global Security and Internet Governance Policy, for 
Intel Corporation. Ms. Plonk, we are glad to have you here this 
morning. Please go ahead.

                   STATEMENT OF AUDREY PLONK

    Ms. Plonk. Chairman Walden, Ranking Member Eshoo, and 
members of the subcommittee, thank you for the opportunity to 
testify today. My name is Audrey Plonk. And I am Intel's 
director of Global Cybersecurity and Internet Governance 
Policy. And I am very pleased to address the committee on the 
important issue before you, the transition of the IANA to the 
multistakeholder community.
    Intel fully supports Congress' commitment to 
multistakeholder Internet governance. Part of that commitment 
is to respect and abide by the work of the multistakeholder 
communities in developing the IANA transition proposal. Intel 
believes that the proposal meets the requirements articulated 
by NTIA in 2014.
    First, I would like to provide some background on my 
experience at Intel and our commitment to an open, global, 
interoperable, trustworthy, and stable Internet. As the 
director of Global Cybersecurity and Internet Governance 
Policy, I lead a global team of policy experts focused on 
Internet policy issues, like governance, privacy, and security. 
As the world leader in computing innovation, Intel sees 
technology as more than just a practical tool. We design and 
build the essential technologies foundational to the world's 
interconnected computing devices. Connectivity to a global, 
open, interoperable, trustworthy, and stable Internet is 
critical to realizing the promises of a new, and even better, 
connected computing era. And successful multistakeholder 
governance is critical to provide the stability that the market 
needs to continue investing in the Internet and American 
technology innovation.
    I testified before this committee last spring on 
stakeholder perspectives on the IANA transition. In my 
testimony, I described how Intel's business plan assumes that 
the Internet will continue to grow at rates similar to that 
experienced in the last 15 years. This growth will make it 
possible to accommodate the Internet of Things, wearable 
computing, natural language recognition, nanotechnology, 
quantum computing, and virtual reality. Intel's views on the 
transition are simple, we support it, and we believe it meets 
the conditions outlined by NTIA in 2014, for a few reasons that 
I want to highlight.
    One, the proposal has broad community support as evidenced 
by approval of the multistakeholder community last week in 
Marrakesh. Two, the proposal supports and enhances 
multistakeholder model, governance models in several important 
ways. It removes a single Government from any disproportionate 
role in oversight. It creates mechanisms to prevent capture by 
any single group of stakeholders. It creates additional 
mechanisms for the community to engage in Internet governance.
    Two, the proposal meets the expectations of the 
constituents of the IANA services, as evidenced by the 
relationship documents drafted by the three IANA communities, 
and ICANN through their establishment of oversight mechanisms 
to ensure performance levels of the IANA registries.
    Three, the proposal maintains security, stability, and 
resilience of the Internet's Domain Name System in numerous 
ways. Technically, it changes little. It will be business as 
usual. It provides for a sole designator model that was chosen 
precisely to support stability of the organization, while also 
empowering the community. It establishes the post-transition 
IANA to maintain the registry of domain names, ICANN contract 
with this PTI to maintain the numbers and protocols registries 
as well. Importantly, the PTI has been structured so it can be 
separated from ICANN.
    Numerous committees will be established to monitor 
performance of the IANA during implementation and throughout 
the transition. And, finally, a parallel testing process for 
the root zone is scheduled to begin in April. This testing 
process will ensure stability through the changes to the root 
zone administration process.
    Number five, the proposal maintains the openness of the 
Internet, keeping the fundamentals of open standards, open 
communications, and multistakeholder governance. And six, the 
replacement of NTIA is not another governmental entity. Intel 
has been deeply engaged in the process. And we will continue to 
engage throughout the implementation of this plan and as the 
transition is completed.
    Throughout the transition process, there has been little 
disagreement about what kind of Internet we want in the future. 
The challenge has really been to translate the principles upon 
which we all agree, global, open, interoperable, stable, and 
trustworthy, into an actionable plan that meets the constituent 
multistakeholder community's needs.
    We look forward to NTIA's and Congress' review of this 
plan. And we are eager to implement it and complete the 
transition. Thank you.
    [The prepared statement of Ms. Plonk follows:]
    
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Walden. Thank you very much for your work and your 
comments. We go to Mr. Matthew Shears, representative and 
Director, Global Internet Policy and Human Rights Project. Mr. 
Shears, thank you for being here this morning. I look forward 
to your comments.

                  STATEMENT OF MATTHEW SHEARS

    Mr. Shears. Thank you, Chairman Walden, Ranking Member 
Eshoo, members of the subcommittee. It is a pleasure to be 
here.
    My name is Matthew Shears. I am the director of CDT's 
Global Internet Policy and Human Rights Project. CDT has been 
fully and deeply involved in the work of the IANA function 
transition. We have participated in the CWG stewardship working 
group and also in the CCWG accountability working group. We 
have also had the pleasure of submitting comment and testimony 
to this subcommittee last year. And we very much appreciate the 
opportunity to be here again.
    Last Thursday in Marrakesh, the Internet community 
forwarded to NTIA the IANA transition plan. This was a 
significant achievement. It did so following the global 
Internet community's approval of a set of recommendations 
designed to ensure the enhanced accountability of ICANN post 
transition. This package, the IANA transition and the 
recommendations for enhancing ICANN's accountability, is quite 
simply a remarkable achievement for the multistakeholder 
community.
    Of course, the work on IANA's stewardship and ICANN 
accountability was anything but simple. Replacing the oversight 
role of NTIA and changing the governance structure of an 
organization as unique as ICANN has been complex and, at times, 
I must admit, quite daunting. Yet, the multistakeholder 
community has risen to the challenge. That means all part parts 
to that community, businesses, governments, the technical 
communities, civil society, academia, and individual users have 
risen to this challenge.
    So has the global multistakeholder community met NTIA's all 
important criteria? And now you will hear some things that have 
been said by other witnesses, so it is good to hear that we are 
echoing the same things on the panel. In many ways, the IANA 
transition plan has been a proving ground for multistakeholders 
approaches to Internet governance. Critics tend to dismiss such 
approaches as difficult, dominated by certain interests, 
unrepresentative of the larger community. Multistakeholder 
processes have been known to fail. But these two 
multistakeholder processes, the IANA transition proposal and 
developing recommendations to enhance ICANN's accountability, 
have delivered thoughtful and robust proposals.
    Were there difficult moments? Yes, numerous. But 
participants remained committed to working through them. Were 
there times when the process seemed to bog down and the resolve 
seemed to waiver? Absolutely. But these were overcome. This 2-
year process has delivered two proposals that are, I think it 
is fair to say, the most successful expression of 
multistakeholder approaches to Internet governance yet. As 
advocates for this approach to Internet policymaking, we need 
strong examples such as these to point to. The successful 
delivery of the IANA transition accountability recommendations 
should encourage stakeholders to pursue multistakeholder 
approaches to policymaking with renewed interest and 
commitment.
    The two working groups involved have also demonstrated that 
open, transparent, and inclusive processes work. These 
characteristics are essential to ensuring that the openness of 
the Internet is maintained.
    One significant challenge was how to empower the various 
parts of the community while maintaining the balance of power 
among them. To a large degree, the community succeeded. But, of 
course, not everyone was happy. Some governments wanted more 
say. Other parts of the community thought that governments 
could end up having too much power. Differences of opinion are 
inevitable in these kinds of processes. What was important is 
that the community has delivered a transition plan that does 
not replace the role of NTIA with a government-led or 
intergovernmental solution. In fact, it is far from it. The 
community has delivered a transition plan that empowers the 
whole of the multistakeholder community which has been the goal 
of the process from the very beginning. And last Thursday, no 
stakeholder and no parts of the community objected to 
delivering the IANA transition plan to NTIA. And that says a 
lot right there.
    The guidance for the transition must not imperil the 
security, stability, and resilience of the Internet has also 
been foremost in the community's mind. The IANA plan emphasizes 
continuity of operations by having ICANN be the IANA functions 
operator post transition. At the same time, the plan provides 
mechanisms for the community and particularly the global 
customers and partners of the IANA functions to ensure that 
ICANN meets agreed performance targets. Were ICANN to fail 
though to meet those targets, then the ultimate sanction 
available to the community will be to change the IANA functions 
operator. In other words, to seek an alternative to ICANN to 
undertake essential DNS-related administrative tasks.
    This same commitment to the security, stability, and 
resiliency of the Internet guided the ICANN accountability 
work. The new limited powers provided to the community ensure 
that the community remains firmly in control when it comes to 
ICANN's governance. From rejecting strategic plans and budgets 
to, in the worst case scenario, of board overreach, removing 
and replacing the entire ICANN board. These accountability 
powers are an effective way of ensuring that the stability and 
continuity of the Internet remain front and center in the ICANN 
post transition.
    There is still much work to be done. Close attention will 
have to be paid by the community to drafting the bylaws. 
Implementation of the post-transition IANA will need to be 
carefully monitored and implementation of the enhancements to 
the independent review process, among others. And there will be 
additional accountability-related work that will continue 
beyond the transition in areas such as human rights, community 
accountability, and ICANN transparency.
    CDT believes that NTIA's criteria have been met and that 
the community's work on the IANA stewardship and ICANN 
accountability paves the way for the multistakeholder community 
to take on the mantle of stewardship that the United States 
Government currently assumes.
    We would like to thank the subcommittee for this 
opportunity to discuss the IANA transition, the central role 
that multistakeholder approaches have played in the process so 
far, and the importance of the transition to broader global 
Internet governance. Thank you.
    [The prepared statement of Mr. Shears follows:]
    
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Walden. Thank you for your testimony once again before 
our subcommittee.
    We will now go to the Honorable David A. Gross, former U.S. 
Coordinator for International Communications and Information 
Policy, and partner, Wiley Rein.
    Mr. Gross, Ambassador, good to have you back. Thank you.

                  STATEMENT OF DAVID A. GROSS

    Mr. Gross. Thank you very much, Mr. Chairman, ranking 
member, members of the subcommittee. My name is David Gross. 
And I have the honor of appearing before you today on behalf of 
the Internet Governance Coalition. I respectfully ask that my 
written statement be included in the record.
    Mr. Walden. Without objection.
    Mr. Gross. As you are well aware, 2 years ago, on behalf of 
the American people, NTIA announced its willingness to 
transition its traditionally based role regarding IANA 
functions and ICANN to the broader Internet community if 
certain strict conditions were met. My fellow panelists, with 
their deep expertise, have been discussing many of those 
technical aspects of the NTIA requirements and how they relate 
to the Marrakesh agreements.
    I would like to focus on the requirement that is of 
paramount importance. And that is the role of NTIA and the U.S. 
Government not be replaced now or in the future by a 
government, group of governments, or an intergovernmental 
entity. This issue is particularly close to my heart, as I had 
the great honor of leading the U.S. Government's efforts for 
about 8 years when virtually every other country in the world 
questioned the legitimacy of the U.S. Government's role 
regarding ICANN and sought to replace the role of our 
Government with the United Nations, the ITU, or some other 
governmental entity.
    Because of the hard work of many people, including the 
passage of unanimous resolutions by this House, we were able to 
defeat the efforts of those other governments. Without doubt, 
that was the correct decision for both the United States and 
for the world. Because of the additional hard work of many 
people, including tough negotiations during the past few 
months, the proposal that has been sent by the Internet 
community to NTIA for review, does what we, for many 
administrations, have sought to accomplish, to ensure that no 
other government or intergovernmental entity can replace the 
U.S. Government. This is a significant accomplishment.
    In my opinion, the role of governments regarding ICANN post 
transition will be even less than it is today. For example, 
formal GAC advice will require unanimity, so any country, 
including the United States, can keep the ICANN board from 
having to even formally consider governmental advice. 
Similarly, the scope of ICANN's jurisdiction will be formally 
limited to its original purposes, so that there is no 
reasonable way for governments or others to expand ICANN's 
activities beyond its technical remit. And because of the 
carve-out, the GAC cannot even be involved in the formal 
consideration of review of its advice.
    But let me be very clear: The remarkable success of this 
initiative does not mean that we can all rest assured that 
governments will not try to exercise control over important 
aspects of the Internet. As an initial matter, we all need to 
focus closely on the actual implementation of the Marrakesh 
agreements to ensure they are done correctly and completely.
    But just as importantly, I believe that, assuming these 
changes are made and ICANN no longer is viewed by governments 
as a place for them to try to exert control over Internet 
governance matters, those governments seeking such control will 
move from trying to use ICANN and its processes to look to 
other organizations and forums instead.
    The role of governments in Internet governance is not going 
away. I hope that the Internet community and this Congress will 
remain vigilant to ensure wherever those issues are raised, we 
are ready to act strongly and effectively to ensure that the 
Internet remains a global mechanism for people to work, to 
play, to learn, to innovate, to express themselves freely, and 
to make the world a better place for everyone regardless of 
where they live. Thank you.
    [The prepared statement of Mr. Gross follows:]
    
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Walden. Thank you, Ambassador. Once again, thanks to 
all the witnesses.
    I would like to ask unanimous consent to submit the 
following documents for the record: A statement from the 
Heritage Foundation outlining remaining concerns, the IANA 
transition; a statement from the Internet Infrastructure 
Coalition supporting the transition of the IANA functions to 
the global multistakeholder community; and a paper from the 
International Center for Law and Economics on assuring 
accountable Internet governance. Without objection, those will 
be entered into the record.
    [The information appears at the conclusion of the hearing.]
    Mr. Walden. One of the questions I know that Heritage has 
asked is they don't think there is enough time here. And so to 
the panel: The transition proposal is currently being reviewed 
by NTIA, but much work remains for a transition to actually 
occur. Do you all think it is realistic that all the work is 
accomplished before the existing contract expires at the end of 
September, why or why not? And do you believe an extension of 
the contract is necessary?
    And if you can be fairly brief on that because I have got a 
couple other questions I would like to get to if time permits. 
Mr. DelBianco.
    Mr. DelBianco. Thank you, Mr. Chairman. The answer is yes. 
We can do it. We have finished the hard work of a report. It 
has been cleared by all of the multistakeholder members. We now 
have to match bylaws to that report. We have got high-paid 
lawyers both for ICANN and for the community. And they need to 
come together roughly a week from now with a draft that we can 
review. If that is done, the only other step is to implement 
the set-up of certain corporations that I think Alissa can talk 
about and creating panels. We can do that in time to get this 
transition completed.
    Mr. Walden. All right. I don't know of too many low-paid 
attorneys. But, anyway, go ahead. Dr. Cooper.
    Dr. Cooper. Yes, so I agree completely with what Mr. 
DelBianco said. We have sufficient time to complete this. The 
fundamentals are all there in the proposals. And all along this 
entire process, particularly from the ICG side, the group that 
I chair, we have driven people to meet tight deadlines. And in 
every instance, the community has done so. And so I expect that 
to happen in this case without any need for an extension.
    Mr. Walden. Ms. Wentworth, do you agree with that?
    Ms. Wentworth. Yes, we agree with that. We need to remain 
focused on the implementation but we think the community can do 
it.
    Mr. Walden. All right. Ms. Plonk?
    Ms. Plonk. I agree.
    Mr. Walden. All right. Mr. Shears?
    Mr. Shears. Yes.
    Mr. Walden. And Ambassador Gross?
    Mr. Gross. I have every expectation that it should be done 
on time. We have testified before that it should happen no 
earlier than when it is ready to happen. But I have every 
expectation that it will be ready.
    Mr. Walden. You think we will get there? Then the contract 
does not need to be extended beyond September. OK.
    Mr. DelBianco, I will go to you. And if you want to follow 
up on that, you can.
    Mr. DelBianco. Just, Mr. Chairman, a very tiny amount. I 
believe that Secretary Strickling has said on many occasions 
that come middle of August, if it is not implemented and the 
bylaws aren't adopted, that NTIA would extend the contract. We 
do have a safety valve if things are not in place.
    Mr. Walden. Perfect. So back to you, Mr. DelBianco, at the 
April 2014 hearing we had, we liked the idea of the stress 
test. We have talked about that this morning. How does the 
community's proposal address the stress test where a majority 
of governments try to steer ICANNpolicies? How is that going to 
work?
    Mr. DelBianco. Thank you, Mr. Chairman. That was the 
infamous stress test 18. And governments were very upset at the 
solution the community came up with. We suggested that for GAC, 
the Government Advisory Committee, to enjoy its privileged 
advice to the board, that they would need to adopt their advice 
through broad support in the absence of a single formal 
objection. And this would mean that only advice that carries 
that special deference would have to be approved by all 
governments.
    The second thing we did was suggest that they had to attach 
rationale to their advice. And ICANN's board, should it choose 
to reject that advice, would only have to enter into a 
conversation of trying to find a mutually acceptable solution, 
but they wouldn't have to actually reach one.
    Finally, if the board itself lacked I guess the backbone to 
stand up to GAC advice, the community reserves the ability to 
challenge the board's acceptance through an independent review 
that could block and undo bad advice that came from 
governments.
    Mr. Walden. All right. Ambassador Gross, if I could ask you 
a question. There was much debate in the lead up to ICANN 55 
about the so-called GAC carve-out. My understanding is that 
this means that when the GAC forces consideration via the ICANN 
board, of an issue through consensus advice the board, that it 
not be permitted to act as a participant in the community 
powers related to that advice. Is that correct?
    Mr. Gross. That is accurate. And that is consistent with 
what Steve discussed as well. And I think that is an important 
consideration going forward.
    Mr. Walden. And so back to you, Mr. DelBianco, that means 
that either the GAC can exercise the privileged position it has 
always had at its disposal when the governments of the world 
are in agreement or it can be one of the votes in the empowered 
community but not both, correct?
    Mr. DelBianco. That is correct, Mr. Chairman.
    Mr. Walden. All right. So in practice this means that the 
governments or the world are prevented from having two bites at 
the apple. All right. Perfect.
    I know we have got other members that have questions. So I 
will yield back and recognize the gentlelady from California, 
Ms. Eshoo.
    Ms. Eshoo. Thank you, Mr. Chairman. Kudos to each one of 
you. I think today's testimony is not only so well thought out, 
but I am very optimistic after listening to you. I mean, there 
is a common theme that runs through the testimony that each one 
of you gave. And so thank you very much.
    My first question, based on listening very carefully to 
what you testified to, how airtight is our case? You know, 
there is an awful lot of talk today about backdoors in the 
intelligence community and the whole debate on encryption and 
all of that. But given the work that has been done, you have 
all expressed enormous confidence based on, again, the work 
that has been done.
    And I just want to make this observation too, I think what 
was embedded in your testimony is like holding a mirror up to 
our country because what we are all working toward, what you 
are working toward, have worked so hard to do, is to make sure 
that, that the Internet is a reflection of democracy in its 
full bloom. That is really what this is.
    So, number one, how airtight do you think our case is? Do 
you think that we are close to imperviousness? And if that 
can't be achieved, then what is it that we need to be on the 
look out for? Whomever would like to start.
    Dr. Cooper. I can start----
    Ms. Eshoo. I wasn't going to ask this question. But after 
listening to you, I am departing from what I was going to ask.
    Dr. Cooper. To me, the best way to understand how airtight 
the case is is to look at the strength of the consensus and who 
was involved in this process. I think everyone in this room can 
appreciate how difficult it is to come to true consensus among 
parties with very diverse interests. And in the case of this 
proposal, it is not just a domestic issue, it is a global 
issue. So you have people from all different sectors, all 
different countries around the world.
    Ms. Eshoo. Well, the United States played a key role in the 
Paris summit conference. And if just one country had objected, 
the whole thing would have collapsed. So consensus, you are 
right, is essential.
    Dr. Cooper. Yes. But that is really the best demonstration 
of how good the proposal is is that you have people who truly 
come from very different walks of life, different places, 
different industries who have all gotten behind this and said 
we have looked at the details of this and we think it is the 
right path forward. And that also reflects an intense amount of 
scrutiny that the proposal has already enjoyed, multiple, 
multiple public comment periods, tens of thousands of email 
exchanges on mailing lists. There has been so much review of 
the----
    Ms. Eshoo. In terms of the consensus, though, and the work 
that has been done and the, I described it as imperviousness, 
but where are the vulnerabilities? Do you see vulnerabilities? 
Or do you think we are rock solid and it is not, no one is 
going to be able to break the, you know, go down a path that is 
unwanted and disrespected? I guess I am being kind, in my 
description.
    Mr. Shears. I think it is a very interesting question. I 
think for those of us who have been involved in this process 
over the past 2 years and in both working groups, what we have 
to be now is extremely vigilant so that we don't have those 
types of occurrences happen. And between now and over the next 
couple of months in terms of the bylaws and the implementation, 
that is the time when we need to be as a community still fully 
engaged. There is no stepping back from this right now.
    Ms. Eshoo. I just want to raise something that--I 
understand why there was language placed in the fiscal year 
2016 Omnibus, it was a rider that you are all familiar with 
that stated that no funds could be used to relinquish NTIA's 
responsibilities, et cetera, et cetera. Those are all tools 
that the Congress uses for very specific reasons. And they are 
what they are. And they are warning shots. And it is important 
to have, you know, send a message across the bow. But if that 
were to continue, given where we are now, another rider, what 
does that do? What message does that send to all of this 
consensus that you have spoken to?
    Ms. Plonk. It is a very good question. I think it sends a 
very negative message to the markets, to the international 
community, and I don't just mean governments, but I mean the 
business community, that we weren't serious about carrying 
forward our commitment to turn this over to the 
multistakeholder community. I think that is bad for investment. 
It is bad for business.
    It will incentivize other trade barriers that we see in the 
tech sector being raised in many countries. It will provide a 
rationale. And so we would be very concerned about the impacts 
of that rider continuing forward.
    Ms. Eshoo. Most helpful. Most helpful.
    Thank you to all of you. And bravo for the work that you 
have done. This has not been easy. It has been a tough slog. 
And we are just about there. And I think it has been worth the 
effort.
    But we wouldn't be where we are right now were it not for 
all of you and others that have made this journey with us. So I 
thank you. I really respect your work. I thank you again. I 
yield back.
    Mr. Latta [presiding]. Thank you very much. The 
gentlelady's time has expired. And the Chair recognizes himself 
for 5 minutes.
    Mr. DelBianco, if I can ask you the fist question. Can you 
explain the position of the Governmental Advisory Committee as 
a decisional participant in the empowered community? The GAC 
stated it would participate as a decisional participant but 
under conditions to be determined internally. The purpose of 
the empowered community seems to be to increase accountability 
and transparency. But the GAC statement seems to be unclear. 
Does this undermine the work of the working group?
    Mr. DelBianco. Thank you, Mr. Chairman.
    The answer is no. ICANN, when it was established, 
delineated in its bylaws seven advisory committees and 
stakeholder organizations that composed and represented global 
Internet stakeholders. Governments or the Government Advisory 
Committee, known as the GAC, is one of those seven. The 
community proposal invites all seven to participate as multi 
equal stakeholders in this empowered community which only fires 
up when we need to consider a change to a fundamental bylaw or 
when there is a petition to object to an override, something 
that the board has done, or even to spill the board of 
directors. And it is only in those situations where that 
community has to come together. And each of the advisory 
committees, through its own methods, will make its decision 
whether to proceed to spill the board, for instance, or to 
oppose it. We require support. And it takes more than one of 
them to object to that.
    So that is what is meant by the word I guess decisional and 
that we are recognizing that stakeholders around the world 
actually do include governments. They represent people in the 
public policy that they are chartered with managing. So it 
would not have been even tenable to say to the governments of 
the world you don't count as a stakeholder in the 
multistakeholder environment. Imagine what that would do to the 
problems we have at the United Nations and the ITU today with 
an ICANN that is largely led by the private sector.
    Mr. Latta. Thank you.
    Dr. Cooper, you described in your testimony that proposals, 
a recommendation to form post transition IANA PTI to operate 
the IANA naming functions. Can you explain how this new entity 
will help achieve accountability? And what will happen with the 
naming functions if the contract with the PTI is terminated 
through the IANA function review?
    Dr. Cooper. Sure. Thank you for the question. So the 
proposal recommends the creation, as you say, of an entity 
called the post-transition IANA which would be an affiliate of 
ICANN. In the for-profit world, an affiliate is more often 
known as a subsidiary. But this is a not-for-profit. And the 
purpose of the post-transition IANA is really to create a legal 
separation between the entity that is performing the IANA 
functions, not just the naming functions, but also the ones 
related to numbers and protocol parameters, to create a legal 
separation between the not-for-profit corporation ICANN and the 
affiliate performing these functions. What this allows is that 
in the case of the names community, which is grounded within 
ICANN, if it comes to pass that the community is so 
dissatisfied with the performance of the IANA functions, they 
would be able to separate from the PTI, essentially take their 
business elsewhere. And this is actually a feature of all three 
components of the proposal.
    Each of the three communities, numbers, names, and protocol 
parameters, has established an ability to create an agreement 
with the IANA functions operator. And if performance becomes so 
degraded that they are unsatisfied, they can take their 
business elsewhere. It is just like a customer service provider 
relationship. And so this creates a significant amount of 
accountability because if the PTI wants to retain the ability 
to continue performing the IANA functions, they need to meet 
the performance requirements that the communities have 
established for them. And in each case, the communities either 
already have or in the process of establishing service-level 
agreements with ICANN and the PTI to establish what performance 
they expect from IANA.
    So that is how it enhances accountability by allowing, the 
communities to decide whether the performance of IANA is 
sufficient.
    Mr. Latta. Thank you. And in the interest of time, I am 
going to also yield back the balance of my time, so we can get, 
hopefully, all the members' questions in.
    The next questions will be from the gentleman from Illinois 
for 5 minutes.
    Mr. Shimkus. Thank you, Mr. Chairman. Dr. Cooper, where 
would they go? I mean, you are addressing a competitive, you 
know, obviously, a chance to get another service rendered. But 
where would they go?
    Dr. Cooper. A very good question. So actually the first 
thing to point out is that all of the communities in the course 
of this process have expressed their extreme satisfaction with 
the performance that ICANN has brought.
    Mr. Shimkus. Right. And I got that.
    Dr. Cooper. So the likelihood of this at present is hard to 
imagine. But I think if you look at what the functions are, 
they are essentially clerical functions. They are maintaining 
values in databases on Web sites. There is not a lot of rocket 
science going on here. And so it is conceivable that any kind 
of entity that knows how to maintain values on Web sites would 
be capable of performing these functions. But, as I said, the 
communities have expressed their satisfaction. And, thus, as 
far as I know, there is no plans in the works----
    Mr. Shimkus. I was just interested in the weaving of the 
story there. And I was just, I didn't know if there was a 
competing alternative option immediately available. But you 
would say soon there could be, someone could step up and do 
that?
    Dr. Cooper. Right. And it is literally a team of 13 people 
who----
    Mr. Shimkus. I got it.
    Dr. Cooper [continuing]. Perform secretarial functions. You 
could imagine other organizations would be able to carry out 
the task.
    Mr. Shimkus. Thank you. We are in a much better place than 
we were, obviously, 2 years ago. We appreciate your help and 
support. And I think had it not been for the Senate not doing 
their job, which I feel they should, we would have a little 
more clarity and a little more strength. But we are where we 
are. And we appreciate the testimony.
    But we have got to continue to do our oversight. And I 
think even without a law being passed, there will continue to 
be oversight by, obviously, us and other interested parties 
until the whole relinquishing of the authority occurs. So one 
concern still out there is the transparency of ICANN's 
interaction with government officials. You are already ready 
for this. So, Mr. DelBianco, do you want to address that?
    Mr. DelBianco. Congressman Shimkus, you weren't here 
earlier when we not only thanked the committee for the DOTCOM 
Act, backing the community as you did, and telling ICANN they 
had to adopt our bylaws or the transition wouldn't happen, but 
at the Argentina ICANN meeting last summer, a standing ovation 
for the U.S. Congress for backing the----
    Mr. Shimkus. My primary just ended. So I guess it is OK to 
say that. But it may not be helpful.
    Mr. DelBianco. So you asked about transparency. I held up 
earlier the bumper sticker we are going to put on the back of 
the ICANN car, ``How is my driving?'' But, Congressman, that 
would only work if we can see what they are doing. In truth, 
ICANN's management from time to time gets adventurous, outside 
of the guardrails we put up for that car, such as setting up 
and planning for the NETmundial Conference, something that was 
done from the inside, top down. And we didn't even know about 
it until months afterwards.
    So what we need is transparency about ICANN's interactions 
with governments and intergovernmental agencies. And that is, 
in fact, locked into our proposal. That is one of the work 
stream 2, which is things that will occur after the transition, 
because we have the leverage to force them through if the board 
and management of ICANN didn't want to take on new transparency 
measures.
    Mr. Shimkus. Yes. And I am glad you mentioned that. Because 
my follow-up was any other outstanding issues in work stream 2 
that we know of?
    Mr. DelBianco. Congressman, the other members of the panel 
would love to chime in on that. We have seven different streams 
in work stream 2. Transparency is one of them. We have one on 
human rights. We have a handful that deal with accountability 
of the actual stakeholder organizations to the people that we 
represent. So we have a lot of work to do. But we have scored, 
through your help, the leverage to hold ICANN's board and 
management to whatever improvements we come up with in work 
stream 2.
    Mr. Shimkus. Great. Thank you. And I am just going to end 
for other colleagues who seek time.
    But, Ambassador Gross, just to finish up, you are obviously 
on the panel here, you probably were, as many of us were, very 
skeptical. It sounds like you are not as skeptical and you 
think this all can happen as intended. But you probably agree 
that there still needs to be oversight and, you know, watching 
of the process. Would that be fair to say?
    Mr. Gross. That would be more than fair to say. In fact, I 
would go slightly further. That is, as I think everyone has 
testified today, implementation is key. We have the framework. 
There is still a lot of hard work to be done. But the other 
piece and I think the piece that has animated you, and others, 
here for many years, is to watch these issues as they go away 
from ICANN and they seek to find home on Internet governance by 
governments trying to be active in this area in other 
organizations. The threat is still there. The need for 
involvement and oversight will be as strong as ever.
    Mr. Shimkus. And thank you all. Great work. And I 
appreciate us being involved together with this. I yield back.
    Mr. Latta. Thank you very much. The gentleman yields back. 
And the Chair now recognizes for 5 minutes the gentleman from 
Kentucky.
    Mr. Guthrie. Thank you very much. Thank you all for being 
here. We appreciate it. I am going to try to go quick too 
because of time.
    But, Ambassador Gross, it was addressed at the last hearing 
with NTIA and ICANN the importance of the U.S. keeping dot-mil 
and dot-gov for our Government's exclusive, perpetual, and no-
cost use. How can we ensure that happens within the timeline of 
the transition?
    Mr. Gross. I think others will be able to address that 
issue as well. But I think basically the key here is the 
Government will continue to be involved, that those issues will 
remain there. And I think there is no doubt but we will be able 
to keep those issues.
    Mr. Guthrie. And if you can elaborate on a more general 
timeline for the transition. And as you do that, if anybody 
else wants to add on to my question about dot-mil, dot-gov, I 
would appreciate that.
    Mr. Gross. Sure. I will work backwards. The expectation, as 
we have all testified today, is that by September 30, which is 
the expiration of the current contract, that all the work 
should be done.
    There are a number of things that have to happen in 
between. Not only does this Congress have an opportunity to 
review what is going on and decide in its wisdom whether to act 
or not, we will have--and, of course, nothing happens until 
NTIA makes its independent determination about whether or not 
its criteria has been met. That process is now ongoing. And, 
importantly, as many people have indicated, there are a number 
of very important and complicated implementation pieces, 
including bylaw changes and drafting and the like, that need to 
be done before anything goes forward.
    Mr. Guthrie. All right. Anybody want to talk on the dot-
mil, dot-gov?
    Mr. DelBianco. Thank you, Congressman. I think that is an 
ideal question to put to NTIA's administrator when, 
undoubtedly, this committee will be meeting with NTIA at the 
conclusion of their report sometime in early June. And they are 
doing interagency reviews.
    So you can bet that GSA and DOD and different agencies of 
the Government will want to secure a permanent lock on dot-mil 
and dot-gov. And that would be a great time to understand 
whether those documents have been produced to the satisfaction 
of the interagency review.
    Mr. Guthrie. All right. Thank you for that. And I have one 
more question.
    Ms. Plonk, you discussed in your testimony the root zone 
manager contract. When will this be developed? And what is the 
timeframe for implementation of testing in a new contract?
    Ms. Plonk. Thank you for the question. My understanding is 
that, as I said, there will be a parallel testing process that 
will begin in April. The ICG report requires a public review 
time for the contract when it is drafted. So sometime between 
April and June, there will be a 30-day public review. And then 
once the transition is approved and finalized and Congress has 
had their 30 legislative days, all the various contracts, 
including the root zone management contract, will be signed. 
That is my understanding.
    Mr. Guthrie. Thank you very much. And, Dr. Cooper, do you 
have any comments on the, anything you would like to add I 
guess?
    Dr. Cooper. Yes. One additional detail is that the ICG 
proposal does require some form of written agreement between 
the root zone maintainer and the IANA functions operator. And 
it is my understanding that that agreement is in development 
and will be made public on very short order. So all the ducks 
are in a row as far as completing the necessary written 
agreement.
    Mr. Guthrie. Thanks to you both. And thanks to you all. 
This is informative. I appreciate it. I yield back.
    Mr. Latta. Thank you. The gentleman yields back. And the 
Chair now recognizes the gentleman from Ohio for 5 minutes.
    Mr. Johnson. Thank you, Mr. Chairman.
    Dr. Cooper, I have heard from folks in the accounting 
industry that they have had difficulty registering domain names 
for the worldwide CPA community. And we have heard a lot about 
the need for accountability and transparency throughout the 
development of the CCWG accountability proposal.
    Can you describe the process of developing the plans for 
the operational communities? Were stress tests used to ensure 
the criteria of NTIA were met?
    Dr. Cooper. Thank you for the question. And I am happy to 
describe the processes in the communities. I will say that, 
just to remember, there is two components of this proposal. I 
can speak to the operational plan. And others may want to chime 
in on the accountability plan.
    But as far as the operational plan goes, there are three 
communities of interest, for names, for numbers, and for 
protocol parameters. And each community was tasked with a 
request for proposals that came from the ICG. And we 
essentially requested not only a description, a thorough 
description, of what the existing oversight arrangements are 
for that community's IANA functions, but also what they plan to 
make them be after the transition and why that community felt 
that the plan that they proposed would meet the NTIA criteria, 
provide a workable solution going forward for the IANA 
functions.
    So each of those communities developed its own essentially 
working group or task force to develop that plan. In each 
community, they had wide review of open participation from 
anyone who wanted to participate. And through that process, 
they honed their plan, sent them to the ICG. We did a review 
that included looking at whether the proposals individually 
created sufficient accountability mechanisms for IANA, met 
NTIA's criteria. And then we looked at them together and said 
do these actually work together as a functional whole?
    So having received proposals from disparate interests, we 
wanted to make sure that together they would be cohesive, we 
had some back and forth with the communities to clarify certain 
things about the proposals, and to ensure that they actually 
would form a cohesive whole.
    In the end, we issued the entire proposal for public 
comment. And on the basis of those hundreds of comments 
received, had some further interaction with the communities, 
further refinements to the proposal, and eventually issued it 
as a complete plan.
    The one other thing I would just note in terms of 
difficulty with registering domain names, and without knowing 
the context, it is hard to speak to it, but it is critical to 
understand what is actually at issue here and what is not. The 
IANA functions deal strictly with the top level of the Internet 
infrastructure. So on the domain name side, that means names 
like dot-com and dot-gov and dot-U.S. It does not deal with any 
procedure for registering domain names at any lower level, like 
energycommerce.gov for example. And so that is an important 
distinction to keep in mind, that the IANA functions are very 
limited in terms of what they provide to the Internet and the 
community. They are very important. But they are very limited. 
And other issues related to other functions are----
    Mr. Johnson. All right.
    Well, you know, I know that the appeals process is part of 
that overall attempt to improve transparency. How will this be 
addressed in the proposal specifically with regard to the 
appeals process?
    Mr. DelBianco. Thank you, Congressman. Stress tests 29 and 
30 actually looked at the question you raised about, say, 
accountants, right? Because .accountant was a very popular new 
top level domain that was bid by several companies. And if the 
.accountant company had made commitments about only allowing 
licensed accountants to get domain names and CPAs, then the 
question was could ICANN hold them to that commitment? That was 
what these stress tests looked at.
    The team came up with a recommendation, and it says, quote, 
``ICANN shall have the ability to negotiate, enter into, and 
enforce agreements, including public interest commitments, with 
contract parties in service of its mission.'' So the point 
there is that we looked at those stress tests and determined 
ICANN could enforce those contracts to ensure that it could 
protect public interests with respect to domains that signed up 
for certain criteria for people to register a second level 
domain.
    Mr. Johnson. OK. Ambassador Gross, do you believe that the 
proposed accountability changes are sufficient? How can we be 
sure that these measures will be enough to guarantee 
accountability in the years to come? And what are the most 
important elements of any truly accountable transition?
    Mr. Gross. Thank you very much. I do believe that if fully 
implemented that the proposals that have been set forth will 
ensure that accountability going forward. I think that one of 
the key pieces of this is that the mission of ICANN has now 
been clarified to be quite technical in nature. And therefore, 
the opportunity for much of the mischief that we have all been 
collectively concerned about, that is the issue of going off 
and doing things beyond its formal remit, and being encouraged 
to do so by governments and by others, will be less.
    And thanks to the efforts of those who worked so hard on 
the accountability piece, that the enforceability of ensuring 
that ICANN does its technical job and no more should be 
assured.
    Mr. Johnson. OK. All right. Mr. Chairman, I yield back.
    Mr. Walden [presiding]. Thank you. And now we will go to 
Ms. DeGette for questions.
    Ms. DeGette. Thank you, Mr. Chairman. I really just have 
one question. First of all, thanks for everybody's hard work.
    The final proposal provides for direct enforcement of the 
Internet community's ability to remove an individual director 
or the entire ICANN board through the courts. Can somebody talk 
about how that is going to work and how that would play out if 
the proposal was adopted?
    Don't all volunteer at once.
    Mr. DelBianco. Be happy to, Congresswoman.
    Ms. DeGette. Thanks.
    Mr. DelBianco. This was a very powerful discussion on the 
CCWG----
    Ms. DeGette. I imagine.
    Mr. DelBianco. Because it ended up being our ultimate 
nuclear option power, that if the board is continuing to ignore 
the community's will, the community's interpretation of its 
mission, then it might leave us with no recourse other than to 
remove one or all of the directors.
    This is not uncommon in corporations and trade 
associations, and yet ICANN had no such mechanism. So the 
empowered community that I described earlier would mount a 
petition to remove one or all directors. Then it would go into 
a consultation process so that the board understood why we were 
so upset with them. So there is an opportunity at several 
increments on this decision model to potentially remedy the 
problem. That if we could not come to terms on it, if we had 
four groups, four of the advisory committees and stakeholder 
organizations in favor of spilling the board, they are 
considered to be gone.
    California law allows a designator, which is the structure 
we are using, to have statutory power to remove the board. And 
I believe we will also require pre-letters filed by each board 
of directors member such that if this power is exercised in 
accordance with the bylaw, their resignation becomes immediate. 
This is to save us the trouble of having to go to court to 
exercise the power that the California law gives us.
    Ms. DeGette. And was there pretty much consensus around 
this after the debate and discussion?
    Mr. DelBianco. It was the consensus that was earned by 
persistence of the community. You can bet that the board of 
directors and their lawyers were none too happy with this, and 
wanted to impose conditions, preordained reasons that you could 
take the directors down. But the community insisted that we 
might just have a difference of opinion on what ICANN's mission 
is interpreted to be. We didn't need to have preordained 
conditions to take the board down. So we were able to prevail, 
but there was resistance.
    Ms. DeGette. Thank you. Thank you very much, Mr. Chairman. 
I yield back.
    Mr. Walden. I thank the gentlelady for her questions.
    And to our panelists, thank you for the great work you have 
done to get us to this point. I feel like it has been a really 
solid partnership to make sure that the Internet governance, 
that we get that right, because it matters for the whole world, 
not just the United States. But it certainly matters to us.
    And so with that, I want to thank you all for 
participating. Members of our subcommittee who may have had 
other commitments today in other hearings may have some 
questions. So we hope we can submit those to you for the record 
and that you can get back to us, as you always have, in a 
timely manner.
    And with that, I thank you again for your testimony, and 
our subcommittee stands adjourned.
    [Whereupon, at 12:08 p.m., the subcommittee was adjourned.]
    [Material submitted for inclusion in the record follows:]
    [
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
